No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JOSE ANGEL HERNANDEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10993
Summary Calendar

FILED
July 14, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JOSE ANGEL HERNANDEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-39-1
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM: *
Jose Angel Hernandez pleaded guilty to one count of possession of a
firearm by a felon. He now appeals his conviction and his 96 month, aboveguidelines sentence.
First, Hernandez argues that his sentence is substantively unreasonable
because it is greater than necessary to achieve the sentencing goals set forth
in 18 U.S.C. § 3553(a). This court reviews the substantive reasonableness of a

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10993
sentence under the abuse of discretion standard. Gall v. United States, 552
U.S. 38, 51 (2007). A non-guidelines sentence is substantively unreasonable if
it fails to reflect the § 3553(a) sentencing factors in that it: “(1) does not account
for a factor that should have received significant weight, (2) gives significant
weight to an irrelevant or improper factor, or (3) represents a clear error of
judgment in balancing the sentencing factors.” United States v. Smith, 440
F.3d 704, 708 (5th Cir. 2006).
Hernandez asserts that the district court failed to consider the
mitigating factors presented at sentencing. Despite Hernandez’s assertion to
the contrary, the district court specifically stated that it considered defense
counsel’s “compelling argument,” which was devoted entirely to mitigating
factors. The district court considered Hernandez’s mitigating arguments but
found them to be outweighed by the aggravating facts of the offense and his
criminal history. There is no requirement that the district court must accord
a mitigating factor dispositive weight. United States v. Lopez-Velasquez, 526
F.3d 804, 807 (5th Cir. 2008). Thus, Hernandez has not shown that the district
court failed to consider a factor that should have been given significant weight.
See Smith, 440 F.3d at 708.
In addition, Hernandez contends that the district court gave
“unwarranted weight to at least two factors that were already considered” in
the guidelines calculation, namely, his pointing of a gun at another person and
his criminal history. This, he states, represents a clear error of judgment in
balancing the sentencing factors.

However, the district court may give

additional weight to factors included in calculating the applicable advisory
guidelines range. Lopez-Velasquez, 526 F.3d at 807. This includes criminal
history. See Smith, 440 F.3d at 709. Thus, Hernandez has not shown that the

2

No. 19-10993
district court made a clear error of judgment in balancing the sentencing
factors. See Smith, 440 F.3d at 708.
Hernandez further argues that his conviction for violation of 18 U.S.C.
§ 922(g) is unconstitutional facially and as applied to him and that there is an
insufficient factual basis as to his knowledge of the interstate commerce
element. Hernandez’s argument that past movement of a firearm in interstate
commerce is insufficient is foreclosed by United States v. Daugherty, 264 F.3d
513, 518 (5th Cir. 2001); United States v. Rawls, 85 F.3d 240, 242-43 (5th Cir.
1996). His argument challenging the constitutionality of § 922(g) as exceeding
the Commerce Clause is foreclosed by United States v. Alcantar, 733 F.3d 143,
145-46 (5th Cir. 2013). His mens rea argument is foreclosed by United States
v. Rose, 587 F.3d 695, 705-06 (5th Cir. 2009); United States v. Dancy, 861 F.2d
77, 80-82 (5th Cir. 1988); Rehaif v. United States, 139 S. Ct. 2191, 2194, 2196
(2019).
Accordingly, the judgment is AFFIRMED.

3

APPENDIX B

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

Page 1 of 7 PageID 120

UNrrpo Srargs Drsrrucr CouRr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

LINITED STATES OF AMERICA

JUDGMENT IN A CRIN{INAL CASE

5
$
$

J()SE AN(;I'L HEIINANDEZ

$

Case Number: 5: I 9-CR-00039-H-BQ( I )

s

USM Number:58636-177
Lara M. Wvnn

5

Defendant's Altorney

5

THE I)EFENDANT:

x
n
n

pleaded guilty to count(s)

I ofthe indictment filed March 10.2019

pleaded guilty to count(s) before a U.S. Magistrate
Judge. which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not guilty

The defendant is adjudicated guilty ofthese offenses

Tilll&

Section / Nature of Offense
l8 U.S.C. {t! 922(g)(l)^ 924(aX2) Convicted Felon ln

Possession

OfA

Offe n s Ended
10t24/20t8

Firearm

Count
l

The defendanl is sentenced as provided in pages 2 through 7 ofthisjudgment. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

I
B

The defendant has been found not guitty on count(s)

Coun(s)

2 X is E

are dismissed on the motion

ofthe United

States

It is ordered that the defendant must notify the United States attomey for this disrict within 30 days of any change of name.
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by thisjudgment are fully paid. lf
ordered to pay restitution, the defendant must notify the court and United States aftomey of material changes in economic
circumstances.

Ausust 23.2019
Dale of Impos ilion ol J udgnrent

Slgnatll

S WESLEY HT]NDRIX
ITED STATES DISTRICT JUDGE

.I

ame and

Tille ofJudge

August 2.3,2019
Dale

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

Page 2 of 7 PageID 121

judgrnent-Page2ol'?

AO 2{58 (Rcv. TXN 2i I8) .ludgment in a Criminal Casc

DEFENDANT:

JOSE ANGEL HERNANDEZ

CASE NUMBER:

5:

l9-CR-00039-H-BQ(

I

)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau of Prisons to be imprisoned for a total term

oi

96 ntonths as to count I to run consecutive to any sentence imposed in Case No. 47939 pending in County Court. Kleberg County.
Texas; Case No.2018-493,879 pending in County Coun at Law No. l, Lubbock County, Texas; and Case No.20l8-416,229 pending
in the l40d District Court, Lubbock County, Texas; and to run concurent with any sentence imposed in Case No. 2019-416,46J
pending in the l40th District Court, Lubbock County, Texas,

tr

The court makes the following recommendations to the Bureau ofPrisons:

X
tr

The defendant is remanded to the custody ofthe United States Marshal.

tr

The defendant shall surrender to the United States Mamhal for this disfiict
at

D

as

notified by the United States Marshal

tr pr.

a.m

on

The defendant shall sunender for seryice ofsentence at the institution designated by the Bureau ofPrisons

E
tr
n

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office

RETURN
I have executed this judgment as follows

Defendant delivered on

a1

to

,

with

a

cenified copy olthisjudgment

UNITED STAl I]S MARSHAI-

Bv
DEPUTY UNITED STATES MARSHAL

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

AO 245B (Rev. TXN 2/18) Judgrnent in a Criminal Case

Judgment --

DEFENDANT:

JOSE ANGEL HERNANDEZ

CASE NUMBER

5:

l9-CR-00039-H-BQ(

Page 3 of 7 PageID 122

I

I'>age

J ol'7

)

SUPERVISED RELEASE
Upon release fiom imprisonment, the defendant shall be on supervised release for a term of

:

three (3) years.

MANDATORY CONDITTONS
L
2.

You must not commit another federal. state or local crime.

3.

You must refiain fiom any unlawful use ofa controlled substance. You must submit to one drug test within 15 days ofrelease
fiom imprisonment and at least two periodic drug tests thereafter, as determined by the court.

You must not unlawfully. possess a controlled substance.

E
4. tr
5. X
6. tr
i. tr

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicablc)

You must make restitution in accordance with l8 U.S.C. $$ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation offi cer. (check if applicable)
You must comply with the requirements ofthe Sex Offender Registration and Notification Act (34 U.S.C. g 20901, et
seq.) as directed by the probation offrcer, the Bureau ofPrisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifuing offense. (check if applicable)
You must panicipate in an approved program for domestic vioJence. (checl ifapplicable)

You must comply with the standard conditions that have been adopted by this coun as well as with any additional
conditions on the attached page.

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

AO 215B (Rcv. IXN 2/18) Judgment in

DEFENDANT:
NUMBER:

CASE

a

Page 4 of 7 PageID 123

Criminal Case

JLrdgment-Page4of7

JOSE ANCEL HERNANDEZ
5:

l9-CR-00039-H-BQ(

1

)

STANDARD CONDITIONS OF SUPERVISION
As pafi ofyour supervised release, you must comply with the following standard conditions ofsupervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identiry the rninimum tools needed
by probation officers to keep informed, report to the couft about, and bring about improvements in your conduct and condition.

L You must repoft to the probation office in the federaljudicial district where you are authorized to reside within 72 hours ofyour
release fiom imprisonment, unless the probation officer instructs you to report to a different probation office or within a diffcrent time
irame.
2. After initially reporting to the probation office, you will recelve instructions from the couft or the probation officer about how and
when you must repofi to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federaljudicial district where you are authorized to reside without first getting permission from
the coun or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation oflcer. lfyou plan to change where you live or anything about your living
arangements (such as the people you live with), you must notify the probation officer at least l0 days before the change. Ifnotifying
the probation officer in advance is not possib)e due to unanticipated circumstances, you must notil) the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type ofemployment, unless the probation officer excuses you from
doing so. Ifyou do not have full-time employment you must try to find fulJ-time employment, unless the probation officer excuses
you from doing so. Ifyou plan to change where you work or anlthing about your work (such as your position or yourjob
responsib ilities), you must notify the probation officer at least 10 days before the change. llnotii/ing the probation officer at least l0
days in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first getting the permission ofthe

probation officer.
9. lfyou are arrested or questioned by a Iaw enforcement officer, you must notii, the probation officer within 72 hours.
10. You must not own, possessr or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., an)thing that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
I L You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant

without first getting the permission ofthe couft.
12. lfthe probation officer determines that you pose a risk to another person (including an organization), the probation officer rnay
require you to notil) the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions ofthe probation officer related to the conditions ofsupervision.

U.S. Probation Office Use Only
A U.S. probation olllcer has instructed me on thc conditions specified by the court and has provided me with a
written copy ofthisjudgment containing these conditions. I understand additional inlbrmation regarding these
conditions is available at ww$'.txnp uscourts. qov
Defendant's Signature

Date

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

AO 245tt (Rev. TXN 2/18) Judgment in

DEFENDAN.I.:

CASENUMBER:

a

Criminal Case

Page 5 of 7 PageID 124
ludgment-Page5ol'7

JOSE ANGEL HERNANDEZ

5:19-CR-00039-H-BQ(l)

SPECIAL CONDITIONS OF SUPERVISION

1.

The defbndant shall abstain from thc use of alcohol and all other intoxicants during the term of'
supervlslon.

2

The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S.
Probation Office for treatment of narcotic, drug, or alcohol dependency. which will include testing for
the detection of substance use or abuse. The defendant shall contribute to the costs of services rendered
(copayment) at a rate ofat least $20.00 per month.

J.

The defendant shall participate in mental health treatment services as directed by the probation olficer
until successfully discharged. These services may include medications prescribed by a licensed
physician. The defendant shall contribute to the costs of services rendered (copayment) at a rate ol at
Ieast $20.00 per month.

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

AO 2,15U (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:

JOSE ANGEL HERNANDEZ

CASE NTJMBER

s: I 9-CR-00039-H-BQ( I )

Page 6 of 7 PageID 125

iudgment .- Page 6 01 7

CRIMINAL MONETARY PENALTIES
The defendant must a the total criminal monet
enalties under the schedule
Assessmcnt
JVTA Assessment*

TOTALS

D
tr

$

of

a

100.00

ents

Fine

Restitution

$.00

$.00

until

The detemination ofrestitution is deferred
An Amended Judgment in a Crimindl C.lse (AO245C) will be entered
after such determination.
The delendant must make restitution (including community restitution) to the fo)lowing payees in the amount listed below.

ll the delendant makes a partial pa)ment. each palce shall receive an approximately proponioncd pa)'ment. However. pursuanl
U.S.C. $ 3664(i)- all nonlederal victims must be paid before the United States is paid.

n
D
D

Restitution amount ordered pursuant to plea agreement

to

I8

S

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
thefifteenthdayafterthedateofthejudgment,pursuanttol8U.S.C.$3612(0. All of the payment options onthe schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. A 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
n

the interest requirement is waived for
the interest requirement for

the

the

tr fine
tr fine

X
tr

resrirurion

restitution is modified as follows:

* Justice for Victims of Trafficking Act of

201 5. Pub. L. No. I l4-22
the total amount oflosses are required under Chapters 109A, 110, 110A, and
September 13. 1994, but before April23, 1996.

** Findings for

l13,{ ofTitle l8 for offenses committed on or after

Case 5:19-cr-00039-H-BQ Document 43 Filed 08/23/19

AO 2458 (Re!. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
NUMBER:

CASE

Page 7 of 7 PageID 126
Judgmenl -- Papc 7 o,-?

JOSE ANGEL HERNANDEZ
5:

l9-CR-00039-H-BQ(

I)

SCHEDULE OF PAYMENTS
Ilaving

assessed the defendant's

A tr
E

tr
B tr
C tr

ability to pay, payrnent ofthe total criminal monetary penalties is due as follows

Lump sum payments of$

_

than

, or

not later

tr D, tr E, or
Payment to begin immediately (may be combined with tr
C,
in

accordance tr C,

Payment in equal

_
k.g., months

D tr

tr
tr

(e.g., v,eekl1,, nonthlt', quqrterly) installments
or yeal'rr, to commence

_

Payment in equal 20 (e.g., weekly, uonthl1,, quarterl:y) installments
(e.R., months or)ed'.r/. to
to a tenn of supervisioni or

E E

due immediately, balance due

commence

F below; or

D,

or

of$

tr

F below); or

over a period

of

(e.g., 30 or 60 do1s1 after the date of this judgmenl: or

of$

_

(c g., 30

over a period

of

ot 60 da1', after release from imprisonmcnt

(e g . 30 or 60 dat s/ afler releasc
Payment during the term ofsupervised release will commence within
flom imprisonment. The court will set the payment plan based on an assessment ofthe defendant's ability to pay at that

time; or

I

X

Special instructions regarding the payment of criminal monetary penalties:

It is ordered that the Defendant shall pay to the United States a special assessment ofSl00.00 for Count l, which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the coun has expressly ordered otherwise, ifthisjudgment imposes imprisonment, payment ofcriminal monetary penalties is
All crirninal monetary penalties. except those payments made through the Federal Bureau of Prisons'
Inrnate Financial Responsibility Program. are made to the clerk ofthe coun.

due during imprisonment.

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed

fl

Joint and Several

for Defendant and Co-Defendant Names and Case Numbers (including defendant nunber), Total Amount, Joint and
Several Amount, and corresponding payee, ifappropriate.
See above

n

Defendant shall receive credit on his restitution obligation for recovery llom other defendants who contributed to the same

loss that gave rise to defendant's restitution obligation.

D
tr
tr

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following coun cost(s):
The defendant shall forfeit the defendant's interest in the following propeny to the United States:

Paymenrs shall be applied in thc following ordei (l) assessment. (2) restitution principal. (3) restitution interest. (4) fine principal.
(5) fine interest. (6) community restitution. (7) JVTA Assessmcnt. (8) penalties, and (9) costs. including cost ofproseculion and court cosls.

